October 29, 2013

The Honorable Henry A. Waxman
Co-Chair, Bicameral Task Force on Climate Change
Ranking Member
Committee on Energy and Commerce
U.S. House of Representatives
Washington, DC 20515

Dear Ranking Member Waxman:

This letter is in response to the February 25, 2013, letter from the Bicameral Task Force on
Climate Change (Task Force), which requested that the Office of Inspector General review how
the entities we oversee are confronting climate change. As the Office of Inspector General of the
Consumer Financial Protection Bureau (CFPB), we provided an initial response to the Task
Force’s letter on March 28, 2013, and this letter is our final response.

The first part of the Task Force’s letter requested that we (1) identify the existing requirements in
legislation, regulation, executive order, and other directives that apply to the CFPB; (2) assess
whether the CFPB is meeting these requirements; and (3) make recommendations for improving
the CFPB’s performance if it is not fully meeting the requirements. The second part of the letter
requested our assessment of (1) the authorities the CFPB has to reduce emissions of heat-
trapping pollution, (2) the CFPB’s authorities to make the nation more resilient to the effects of
climate change, and (3) the most effective additional steps the CFPB could take to reduce
emissions or strengthen resiliency.

In our initial response, we explained that we forwarded your request to the CFPB for its opinion
on the applicability of federal climate change requirements and the status of its compliance with
those applicable requirements. The CFPB’s Legal Division is responsible for determining the
federal climate change requirements to which the CFPB is subject. We have summarized the
CFPB’s response to our inquiry below. We provided CFPB officials with a draft of this letter
and considered their comments as we prepared the final document.
The Honorable Henry A. Waxman                              2                                     October 29, 2013



The CFPB’s Responses to Part 1 of the Request

         (1) Identify the existing requirements in legislation, regulation, executive order, and
             other directives that apply to the CFPB.

             The CFPB’s Legal Division identified four requirements that apply to the agency.

                  •   Energy Independence and Security Act of 2007—Congress enacted the
                      Energy Independence and Security Act of 2007 to move the United States
                      toward greater energy independence and security; to increase the production
                      of clean renewable fuels; to protect consumers; to increase the efficiency of
                      products, buildings, and vehicles; to promote research on and deploy
                      greenhouse gas capture and storage options; to improve the energy
                      performance of the federal government; and for other purposes.

                  •   Energy Policy Act of 2005—Congress enacted the Energy Policy Act of 2005
                      to ensure jobs for our future with secure, affordable, and reliable energy.

                  •   Executive Order 13514—The President released Executive Order 13514 in
                      October 2009 to establish an integrated strategy toward sustainability in the
                      federal government and to make reduction of greenhouse gas emissions a
                      priority for federal agencies.

                  •   Executive Order 13423—The President released Executive Order 13423 in
                      January 2007 to strengthen the environmental, energy, and transportation
                      management of federal agencies.


         (2) Assess whether the CFPB is meeting the requirements in (1) above.

             CFPB officials described the climate change initiatives it has taken to comply with
             applicable climate change requirements identified in (1) above.

                  •   The CFPB is pursuing the U.S. Green Building Council’s Leadership in
                      Energy and Environmental Design (LEED) Gold certification for the
                      renovation of its headquarters building. 1




1.   The LEED 2009 Green Building Rating System for New Construction and Major Renovations is a set of
     performance standards for certifying the design and construction of commercial or institutional buildings and
     high-rise residential buildings. The intent is to promote healthful, durable, affordable, and environmentally
     sound practices in building design and construction.
The Honorable Henry A. Waxman                              3                                     October 29, 2013



                  •   The CFPB leases two bi-fuel vehicles from the General Services
                      Administration Fleet. 2

                  •   The CFPB has established a Green Team to promote an environmentally
                      friendly culture, including paperless presentations, low-ink printing, and
                      recycling.


         (3) If the CFPB is not fully meeting the requirements, make recommendations for
             improving its performance.

             Based on (2) above, we do not have any recommendations for the CFPB regarding
             the requirements in (1) above. We recognize the financial and environmental risks
             that climate change poses to the federal government, and we will consider additional
             reviews of the CFPB’s climate change initiatives during our annual planning process.


The CFPB’s Responses to Part 2 of the Request

         (1) The authorities the CFPB has to reduce emissions of heat-trapping pollution.

             The CFPB did not identify any authorities it has to reduce emissions from heat-
             trapping pollution.


         (2) The CFPB’s authorities to make the Nation more resilient to the effects of climate
             change.

             The CFPB did not identify any authorities it has to make the nation more resilient to
             the effects of climate change.


         (3) The most effective additional steps the CFPB could take to reduce emissions or
             strengthen resiliency.

             The CFPB did not identify any additional steps that it could take to reduce emissions
             or strengthen resiliency. We did not conduct a review that would separately identify
             any additional steps that the CFPB could be taking at this time.




2.   The General Services Administration Fleet provides vehicles and fleet management services to participating
     federal agencies. The General Services Administration offers bi-fuel alternative fuel vehicles, which have two
     separate fuel systems: one for an alternative fuel and one for gasoline.
The Honorable Henry A. Waxman                   4                               October 29, 2013



Thank you for your interest in the work of the Office of Inspector General. If you have questions
on this or any other matter, please contact me at 202-973-5005 or John Manibusan, Assistant
Congressional and Media Liaison, at 202-973-5043. We are providing similar letters to the other
Co-Chairs of the Task Force.

Sincerely,




Mark Bialek
Inspector General
